No. 19-1199
In the

Supreme Court of the United States
Don Higginson,
v.

Petitioner,

XAVIER BECERRA, in his official capacity as the
Attorney General of California; CITY OF POWAY,
Respondents.
On Petition for a Writ of Certiorari to
the United States Court of Appeals
for the Ninth Circuit
CERTIFICATE OF ELECTRONIC SERVICE
Pursuant to Sup. Ct. R. 29.3 and the Court’s April 15 Order, I certify that
Petitioner, Respondents, and Intervenor consented to receive service of the BRIEF
AMICUS CURIAE OF PACIFIC LEGAL FOUNDATION et al. IN SUPPORT OF
PETITIONER electronically and I caused electronic copies of the brief to be served
via email.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on May 5, 2020.

____________________________
CHRISTOPHER M. KIESER
Counsel of Record
Pacific Legal Foundation
930 G Street
Sacramento, California 95814
Telephone: (425) 576-0484
CKieser@pacificlegal.org
Counsel for Amicus Curiae

Service List
Petitioner
William Spencer Consovoy
Counsel of Record
Consovoy McCarthy PLLC
1600 Wilson Boulevard
Suite 700
Arlington, VA 22209
(703) 243-9423
will@consovoymccarthy.com
Respondents
Party name: City of Poway
Alan Brian Fenstermacher
Counsel of Record
Rutan & Tucker, LLP
611 Anton Boulevard, 14th Floor
Costa Mesa, CA 92626
(714) 641-3452
afenstermacher@rutan.com
Party name: Xavier Becerra
Joshua A. Klein
Counsel of Record
Department of Justice
Office of the Solicitor General, California
1515 Clay Street
Suite 2000
Oakland, CA 94612-1413
510-879-0756
joshua.klein@doj.ca.gov
Intervenors
Party name: Defendant-Intervenors California League of United Latin American
Citizens, Jacqueline Contreras, Xavier Flores, Judy Ki, and Hiram Soto
Thomas Saenz
Julia Gomez
Mexican American Legal Defense
634 South Spring Street, 11th Floor,
Los Angeles, CA 90014
213.629.2512
tsaenz@maldef.org
jgomez@maldef.org

